<html>
<title> - U.S. POLICY TOWARD NIGERIA: WEST AFRICA'S TROUBLED TITAN</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



                      U.S. POLICY TOWARD NIGERIA: 
                      WEST AFRICA'S TROUBLED TITAN

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 10, 2012

                               __________

                           Serial No. 112-184

                               __________

        Printed for the use of the Committee on Foreign Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

74-961 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa<greek-l>
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey--
EDWARD R. ROYCE, California              deceased 3/6/12 deg.
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
RON PAUL, Texas                      ELIOT L. ENGEL, New York
MIKE PENCE, Indiana                  GREGORY W. MEEKS, New York
JOE WILSON, South Carolina           RUSS CARNAHAN, Missouri
CONNIE MACK, Florida                 ALBIO SIRES, New Jersey
JEFF FORTENBERRY, Nebraska           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       DENNIS CARDOZA, California
GUS M. BILIRAKIS, Florida            BEN CHANDLER, Kentucky
JEAN SCHMIDT, Ohio                   BRIAN HIGGINS, New York
BILL JOHNSON, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
DAVID RIVERA, Florida                CHRISTOPHER S. MURPHY, Connecticut
MIKE KELLY, Pennsylvania             FREDERICA WILSON, Florida
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             WILLIAM KEATING, Massachusetts
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           KAREN BASS, California
TOM MARINO, Pennsylvania             RUSS CARNAHAN, Missouri
ANN MARIE BUERKLE, New York          THEODORE E. DEUTCH, Florida
ROBERT TURNER, New York             
                                    








                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Johnnie Carson, Assistant Secretary of State, 
  Bureau of African Affairs, U.S. Department of State............     6
The Honorable Earl Gast, Assistant Administrator, Bureau for 
  Africa, U.S. Agency for International Development..............    19
Pastor Ayo Oritsejafor, president, Christian Association of 
  Nigeria........................................................    43
Darren Kew, Ph.D, associate professor, McCormack Graduate School, 
  University of Massachusetts Boston.............................    49
Mr. Anslem John-Miller, U.S. Representative, Movement for the 
  Survival of the Ogoni People (MOSOP)...........................    57

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Johnnie Carson: Prepared statement.................    10
The Honorable Earl Gast: Prepared statement......................    21
Pastor Ayo Oritsejafor: Prepared statement.......................    46
Darren Kew, Ph.D: Prepared statement.............................    52
Mr. Anslem John-Miller: Prepared statement.......................    59

                                APPENDIX

Hearing notice...................................................    66
Hearing minutes..................................................    67
The Honorable Russ Carnahan, a Representative in Congress from 
  the State of Missouri: Prepared statement......................    68
Questions submitted for the record by the Honorable Christopher 
  H. Smith, a Representative in Congress from the State of New 
  Jersey, and chairman, Subcommittee on Africa, Global Health, 
  and Human Rights, to the Honorable Johnnie Carson..............    69
  Written responses from the Honorable Johnnie Carson............    70
Written responses from the Honorable Earl Gast to questions 
  submitted for the record by the Honorable Christopher H. Smith.    77
Questions submitted for the record by the Honorable Christopher 
  H. Smith to Pastor Ayo Oritsejafor.............................    82
Written responses from Darren Kew, Ph.D., to questions submitted 
  for the record by the Honorable Christopher H. Smith...........    83
Questions submitted for the record by the Honorable Christopher 
  H. Smith to Mr. Anslem John-Miller.............................    87

 
        U.S. POLICY TOWARD NIGERIA: WEST AFRICA'S TROUBLED TITAN

                              ----------                              


                         TUESDAY, JULY 10, 2012

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                  and Human Rights,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2200 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. Good afternoon and welcome. Today's hearing will 
examine U.S. policy and policy options for managing relations 
with Nigeria in light of concerns on terrorism and social and 
political unrest. The stability of the Nigerian Government is 
critical to regional, continental and global interests. Nigeria 
is hugely important on many fronts. Nigeria, Africa's largest 
producer of oil and its largest democracy is one the United 
States Government's key strategic partners on the continent. It 
is Africa's most populous country with more than 155 million 
people, roughly half Muslim and half Christian, and its second 
largest economy. Nigeria supplies over three times the volume 
of imports to the United States as Angola, the second leading 
U.S. import supplier. The United States receives nearly 20 
percent of our petroleum exports from Nigeria. Consequently, 
Nigeria's stability is of critical interest for the U.S. 
economy and American policy interests.
    Attacks by the Nigerian Islamic group Boko Haram on 
Christians, including attacks launched this past weekend, are 
absolutely unprovoked and they are unconscionable. People of 
all faiths and all people of goodwill must demand immediate 
action against the terrorist organization.
    According to the Catholic News Agency, EWTN News, and I 
quote,

        ``Archbishop Ignatius A. Kaigama is concerned over the 
        seemingly endless violence against Christians that 
        claimed at least 58 lives this past weekend and 
        hundreds of others in recent weeks. It is `our prayer 
        that something definitive will be done to stop the 
        situation that is inhuman,' the Archbishop of Jos, 
        Nigeria and Nigerian Bishops' Conference president 
        said. In a July 9 interview with Vatican Radio, 
        Archibishop Kaigama said that the violence against 
        Christian villages `doesn't seem to stop.' Although he 
        was recently awarded the Institute for International 
        Research's annual peace building award, the archbishop 
        said he and his priests are discouraged by the silence 
        of foreign governments surrounding the violence in 
        Nigeria. A peaceful resolution `cannot be left to just 
        one country,' the archbishop said, urging a `collective 
        effort.' ''

    Boko Haram, as we all know, reportedly is in league with 
al-Qaeda in the Mahgreb, and is involved at some level with 
Tuareg rebels in northern Mali, Islamists in Somalia, and 
possibly even the Taliban in Afghanistan.
    In addition to its well publicized attack on Christians in 
Nigeria, Boko Haram has been involved in murdering those they 
consider moderate Muslims or Muslims collaborating with the 
Central Government or the West, including several Muslim 
clerics, the leader of the All Nigeria People's Party and the 
brother of Shehu of Borno, a northern Muslim religious leader. 
There are reports that some northern Nigerian leaders may be 
supporting Boko Haram in some way as a leverage against a 
government that they oppose.
    U.S. policy toward Nigeria must also take into account 
ethnic, religious and political changes the Nigerian Government 
faces outside of the Boko Haram dynamic. Furthermore, 
development deficits in Nigeria have had unequal impacts on 
various minority groups such as Nigeria's Delta region. This 
lack of attention to equitable development in Nigeria has led 
to violent uprisings that do not appear to be resolved in any 
part of the country, certainly not in the Niger Delta.
    In Nigeria, President Goodluck Jonathan is considered to be 
the personification of his name, a fortunate politician who has 
been in the right place at the right time to enable him to 
enjoy a meteoric rise in politics with no perceived political 
base or political distinction in his relatively brief career. 
He was an obscure government employee before he entered 
politics in 1998, and a year later was elected Deputy Governor 
of the Bayelsa State. Except for his success in negotiations 
with his fellow Ijaws in the troubled Delta region, he served 
until he became the Governor of Bayelsa State, after his 
predecessor was impeached on corruption charges in 2005.
    Outgoing President Obasanjo selected the then-Governor 
Jonathan to be the People's Democratic Party's Vice 
Presidential candidate with Umaru Yar'Adua, a Presidential 
candidate from the North, in the 2007 elections. Yar'Adua was 
ill for much of his time in office, and Jonathan was called on 
to exercise presidential authority from November 2009 when 
Yar'Adua was unable to do so. The Nigerian power brokers 
accepted Jonathan as official Acting President in February 
2010. Jonathan did surprise people, they didn't think he would 
do this, when he announced in September 2010 that he had 
consulted widely throughout Nigeria and would actually run for 
President. President Jonathan won the election convincingly but 
his People's Democratic Party lost seats in the Senate and the 
House of Representatives, and PDP now holds four fewer 
governorships, down to 23 of 36.
    In October 2010, the Jonathan administration called for the 
fuel subsidy to be removed. The government's decision was met 
with demonstrations and strikes by national unions. But while 
the unions agreed to end strikes and protests, the Joint Action 
Forum, a civil society affiliate of the unions, continued 
protest for a time throughout the country. The government 
responded with what human rights groups charge was excessive 
force. In northern Kano State, a student was shot to death in 
the course of breaking up a rally.
    In addition to the resentment caused by government 
brutality in dealing with the large youth-led fuel subsidy 
protests, high unemployment, resentment over perceived 
government corruption, and mismanagement and experience in 
organizing social protests may yet have a lasting impact on 
Nigerian politics and society.
    The issues of excessive government force in the Niger 
Delta, northern Nigeria and other areas of the country over 
several past governments in Nigeria have fed resentment. 
Combined with the northern political opposition, the increasing 
resistance by minorities and the civil society political 
revolt, the Jonathan administration faces significant forces 
arrayed against it. The questions our Government must answer, 
will this government withstand its opposition and what can we 
do to help Nigeria remain Africa's essential nation?
    I would like to yield to my friend and colleague, Ms. Bass, 
for any opening comments she might have.
    Ms. Bass. Well, once again Mr. Chairman, I want to thank 
you for your continued leadership and attention toward the 
African continent and on holding today's hearing on Nigeria, 
one of our country's most important strategic partnerships in 
the region.
    We all know that Africa's most populous nation with a 
wealth of natural resources, Nigeria has much to offer the 
continent, our country and the world. Over the last 6 years, 
Nigeria has experienced an average growth rate in GDP of nearly 
7 percent, due in most part to the fact that Nigeria is 
Africa's largest oil producer and one of the top U.S. suppliers 
of oil. It said that oil and gas production account for 95 
percent of export earnings. The Congressional Research Service 
reports that U.S. imports account for over 40 percent of 
Nigeria's total crude oil export, making the United States 
Nigeria's largest trading partner.
    It is clear that the United States and Nigeria have a 
unique partnership that links our two nations in important and 
meaningful ways. However, despite all that Nigeria has to 
offer, Nigeria continues to be challenged by a host of social, 
political, economic and security issues that stymy its full 
emergence as one of the continent's brightest stars.
    Just over a year since Presidential elections, President 
Jonathan continues to press for much-needed reforms, and it is 
my hope that he will move expeditiously on a path of reform 
that addresses endemic corruption in and outside of government, 
and that these reforms focus on transparency and accountability 
at all levels. President Jonathan must also address some of the 
most enduring tensions that divide ethnic groups in the north 
and south and that also cut across religious lines.
    Too many Nigerians have lost their lives and sadly more 
hang in the balance if President Jonathan and his 
administration do not address social-economic development and 
land rights issues as part of the root causes of these 
tensions. This includes continued efforts to strengthen the 
Economic and Financial Crimes Commission, the lead body 
established to address fraud and corruption. I would appreciate 
the witnesses providing an update on the Jonathan 
administration's efforts to address corruption.
    We are also aware that Boko Haram continues down a path of 
violence and disruption, and poses serious threats to peace and 
stability in Nigeria and can be a destabilizing element 
throughout the region, especially if its ties to AQIM are 
continued. Just 2 weeks ago, AFRICOM's General Ham commented 
that Boko Haram and AQIM are likely sharing guns, training and 
explosive materials. I would appreciate the witnesses providing 
their perspectives on the present-day makeup of Boko Haram.
    Does the core group number just in the hundreds? Is the 
group susceptible to fracturing of its leadership away from 
building ties with al-Qaeda? I will be particularly interested 
to hear your remarks, Assistant Secretary Carson, on what 
diplomatic efforts show signs of positive progress with the 
Nigerian Government to effectively address Boko Haram's 
strength and position. And I would appreciate greater clarity 
about designating Boko Haram as a foreign terrorist 
organization.
    Is there the potential for Boko Haram to be further 
emboldened and given greater legitimacy with an official 
designation? And most important, how do we address the root 
causes of Boko Haram's grievances without ostracizing other 
groups and communities in regions where the social and economic 
and political realities are equally challenging?
    On another note, and changing subjects a bit, I do want to 
acknowledge that Nigeria is a major recipient of U.S. foreign 
assistance with aid topping $625 million in Fiscal Year 2012. 
Nigeria is also a participant in the State Department's Trans-
Sahara Counterterrorism Partnership, a successful program that 
has increased border protection and regional counterterrorism 
capabilities and coordination.
    Additionally, while 90 percent of exports from Nigeria are 
AGOA-eligible, I hope that as we look to the future of AGOA, 
with which many of my colleagues in both the House and Senate 
have been involved, we will see a broader diversification of 
other goods and services that can also take advantage of AGOA 
opportunities.
    Lastly, as we continue to deal with the vast array of 
complex social, political, economic and security challenges, we 
must remember the serious environmental issues faced by those 
in the Niger Delta. Environmental degradation and health 
hazards have depressed a once vibrant area. I specifically want 
to point out the problem with Nigeria's oil fields lacking the 
infrastructure to capture and transport natural gas, and the 
government unsuccessfully stopping the flaring gas at oil 
wells.
    My question to you is, what happens at wells operated by 
U.S. companies? Have they addressed this problem? If not, why 
not, and if so, are they able to assist the Nigerian Government 
in addressing this issue? I raise this as a question for this 
hearing because we are all aware that the social and economic 
conditions are the root causes of the topic that we are 
discussing today.
    Thank you, and I look forward to today's witnesses 
testimonies.
    Mr. Smith. Thank you very much, Ms. Bass.
    Mr. Turner?
    Mr. Turner. Thank you. I would just have one series of 
questions for the witness, Mr. Carson. The nondesignation of 
Boko Haram as an FTO, it has been pressed, this designation has 
been pressed by the FBI, the Department of Justice, Homeland 
Security. There is a bill in the Senate with Senator Brown. 
There is a bill in the House. This group has attacked the U.N. 
There have been over 1,000 deaths attributed to it. Their 
attacks have been very pointed on religious grounds, on 
Christmas, on Easter, attacking Christian churches.
    And as I have researched this, the only recommendations 
seem to be that this would make life a lot easier here if it 
was designated, Boko Haram, as a foreign terrorist 
organization. And in view of the proactive interdepartmental 
efforts against terrorism since 9/11, it would seem this would 
be the logical thing to do, yet it is not. So I would like to 
get a better understanding of the rationale. It has been 
blocked by the State Department and the State Department only. 
So that would be my single question. Thank you.
    Mr. Smith. Thank you very much, Mr. Turner.
    The chair recognizes the vice chairman of the subcommittee, 
Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman, for convening 
this hearing today to focus on the U.S. policy toward Nigeria, 
which as our distinguished witness, Assistant Secretary Carson, 
has described as probably the most important country in sub-
Saharan Africa. As Africa's second largest economy and one of 
the largest recipients of U.S. foreign aid on the African 
continent, Nigeria has made a notable transition to democracy 
after decades of military rule since the nation's independence 
in 1960. In its recent 2011 Presidential elections, however 
imperfect, they were widely viewed as credible and seen as 
foundational for further development of Nigeria's nascent civil 
society institutions.
    However, serious problems demand our attention. A 
collection of photographs recently published in the Washington 
Post under the headline, Forgotten Conflicts, highlighted 
Nigeria's Niger Delta region which has yet to emerge from a 
vicious cycle of environmental degradation and militancy and 
remains largely unaccessible to outside observers. Also, a 
long-standing rivalry between the North and South punctuated by 
ethnic and sectarian tensions has resulted in the loss of more 
than 13,000 lives since 1999. Brutal attacks on minority 
Christian communities in Nigeria illustrate why the U.S. 
Commission on International Religious Freedom recommended that 
Nigeria be classified as ``a country of particular concern'' 
and then considered the potential for regional destabilization 
as radical elements within Nigeria potentially linked with 
global terrorist organizations.
    Even as reform efforts have developed under President 
Jonathan, which offer encouragement, Nigeria's future 
trajectory will depend upon how effectively the root sources of 
instability within that society are managed.
    Unfortunately we are being called away from a vote, so 
Secretary Carson, I am going to state one question now and if I 
am not in attendance, if you could potentially try to address 
it when we return. How do you see the future of reconciliation 
and evaluate the national government's efforts to address the 
grievances of communities in the Nigerian Delta, such as the 
Ogoni community? Thank you.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you very much, Mr. Fortenberry.
    Ambassador Johnnie Carson has been a frequent witness for 
this subcommittee. He currently serves as Assistant Secretary 
of State in the Bureau of African Affairs, a position he has 
held since May of '09. Ambassador Carson has a long and 
distinguished career in public service including 37 years in 
the Foreign Service including time as our Ambassador to Kenya, 
Uganda and Zimbabwe.
    Ambassador Carson has also served as the staff director of 
this subcommittee and as a Peace Corps volunteer in Tanzania. 
Ambassador Carson is also the recipient of numerous awards for 
his service in the State Department.
    Earl Gast--welcome back--is making his second appearance 
before our subcommittee, and it is nice to see him again. He is 
USAID's Assistant Administrator for Africa and has a 21-year 
career working at USAID in leading development programming, 
especially in post-conflict and transitioning societies.
    Prior to this position, Mr. Gast served in Afghanistan, 
Colombia, Eastern Europe and Rome. Mr. Gast was also one of the 
first USAID employees stationed in Iraq. He played an equally 
important role in developing the post crisis strategy for 
Kosovo, overseeing all mission operations. Most prominently, he 
received the agency's award for heroism and the Distinguished 
Unit Award.
    Ambassador Carson?
    Under advice from my good friends and colleagues, we will 
take a very brief recess. We have three votes, a 15, which is 
now, we have about 8 minutes left, and then two fives. And we 
will be back. Sorry for the delay.
    [Recess.]
    Mr. Smith. We will resume this hearing. And I apologize 
again for the interruption. But Ambassador Carson, the floor is 
yours.

STATEMENT OF THE HONORABLE JOHNNIE CARSON, ASSISTANT SECRETARY 
 OF STATE, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Ambassador Carson. Thank you very much.
    Chairman Smith, Ranking Member Bass, members of the 
committee, thank you for this opportunity to speak with you 
this afternoon about Nigeria. Since my service in Nigeria as a 
young Foreign Service Officer at the beginning of my career, I 
have followed closely the country's political and economic 
developments. Nigeria is a country of significance and is one 
of our most important strategic partners in sub-Sarahan Africa. 
Let me mention just a few facts that illustrate this point.
    At 160 million people, Nigeria is Africa's most populous 
nation. It is home to one of every five sub-Sarahan Africans. 
It has the sixth largest Muslim population in the world, and 
over the next decade will surpass Egypt as Africa's largest 
Muslim state. On the global stage, Nigeria is the largest 
African contributor to international peacekeeping operations 
and the fifth largest in the world. Nigeria is also serving a 
2-year term as a non-permanent member of the United Nations 
Security Council.
    Nigeria is also a dominant economic force in Africa and our 
largest trading partner on the continent. It is the second 
largest recipient of American direct private sector investment. 
It is the fifth largest supplier of crude oil to the United 
States and our largest export market for American wheat. 
Underscoring its economic influence, Nigeria has the largest 
economy in West Africa, contributing over 50 percent of West 
Africa's GDP. A stable, prosperous Nigeria is in the interest 
of the United States, in the interest of West Africa and 
Africa, and in the interest of the global community. A stable 
and prosperous Nigeria can also be a powerful force for 
promoting peace, prosperity and stability across Africa.
    Nigeria, however, is not without its challenges. Decades of 
poor governance has seriously degraded the country's health, 
education and transportation infrastructure. Despite hundreds 
of billions of dollars in oil revenue, Nigeria has virtually no 
functioning rail system and only half of the population has any 
access to electricity. Nearly 100 million Nigerians live on 
less than $1 a day and nearly 1 million children in that 
country die each year before their fifth birthday. Public 
opinion polls and news reports suggests that there is a strong 
sentiment throughout Nigeria that Nigeria's poverty is a result 
of government neglect, government corruption and government 
abuse.
    This brings us to the subject of today's hearing about 
``West Africa's Troubled Titan.'' The inability of the 
government to address the needs of the people, to grow the 
economy and to generate jobs has generated a sense of 
hopelessness among many. It also helps feed a popular narrative 
among some that the government simply does not care.
    Boko Haram capitalizes on popular frustrations with the 
nation's leaders, its poor government, its ineffective service 
delivery and the dismal living conditions of many northerners. 
Over the past year, Boko Haram has created widespread 
insecurity across northern Nigeria, inflamed tensions between 
various communities, disrupted development activities and 
frightened off investors. Boko Haram is responsible for most of 
the instability and violence that is occurring across northern 
Nigeria.
    Although our understanding of Boko Haram is limited, we 
believe it is composed of at least two organizations. A larger 
organization focused primarily on discrediting the Nigerian 
Government, and a smaller, more dangerous group that is 
increasingly sophisticated and lethal in its objectives and 
tactics. The smaller group has developed links with AQIM and 
has a broader anti-Western agenda. This group has claimed 
responsibility for the kidnapping of Westerners and for the 
attacks on the United Nations building in Abuja. They also bomb 
churches to aggravate ethnic and religious tensions in an 
attempt to sow chaos and increase their public profile.
    To help expose and isolate the most dangerous elements, the 
most dangerous leaders of Boko Haram, the United States 
Government recently designated three individuals as specially 
designated global terrorists. Those individuals are Abubakar 
Shekau, Khalid al-Barnawi, and Abubakar Adam Kambar. Shekau is 
the most visible leader of Boko Haram, while Barnawi and Kambar 
have ties to Boko Haram and also have close ties and links with 
AQIM, al-Qaeda in the Islamic Maghreb. These designations 
demonstrate our resolve to diminish the capacity of Boko Haram 
to execute violent attacks. Boko Haram has grown stronger and 
increasingly more sophisticated over the past 3 years, and 
defeating Boko Haram will require a sophisticated and 
comprehensive domestic response that has both a security 
strategy and a social-economic strategy and component for 
addressing the social-economic conditions of northern Nigeria.
    Security efforts aimed at containing Boko Haram's violence 
must avoid excessive violence and human rights abuses and make 
better use of police and intelligence services to identify, to 
arrest and to prosecute those responsible for Boko Haram's 
violent acts. Boko Haram thrives because of social and economic 
problems in the north that the government must find a way of 
addressing. A coordinated government effort to provide 
responsible, accountable governance to all Nigerians while 
creating opportunities for economic growth will diminish the 
political space in which Boko Haram operates. We must also 
remember ongoing dangers in other parts of the country as well, 
particularly the Niger Delta which is witnessing alarming rates 
of oil bunkering, costing the government almost 20 percent in 
potential government revenue, and also an area of the country 
where environmental damage because of oil spills and oil 
leakages have caused enormous economic hardship.
    U.S. engagement with the Nigerian Government is based on 
mutual respect, mutual responsibility and partnership, and it 
is consistent with the new U.S. strategy toward sub-Saharan 
Africa. The forum for our engagement with Nigeria is the U.S.-
Nigeria Binational Commission. The various working groups of 
the BNC, which have met over ten times since its launch in 
April 2010, have provided us with a very valuable mechanism to 
conduct frank exchanges with senior Nigerian officials on 
issues of governance, energy, agriculture, regional security 
cooperation and the Niger Delta. On June 4 and 5 of last month, 
Deputy Secretary Bill Burns led the United States' delegation 
at the highest level meeting of the BNC since the Commission's 
inauguration in 2010. The Nigerian delegation was led by 
Foreign Minister Ashiru and included representatives at all 
levels of the Nigerian Government including governors, 
legislators, military officers, security officials and Federal 
Government authorities. We believe the Binational Commission is 
an effective way of strengthening our partnership with Nigeria, 
including our efforts to assist Nigeria in the security arena.
    Mr. Chairman and members of the committee, Nigeria faces 
significant challenges, but it is not going to collapse, 
implode or go away. I believe that the forces holding Nigeria 
together are much stronger than those that might seek to pull 
it apart. Nigeria and Nigerians are up to the task, and the 
opportunities for economic growth in that country are 
boundless.
    We should remember that Nigeria has a large and very 
talented professional class, an abundance of natural resources 
and a strategic location along the West African coast. Nigeria 
is committed to democratic rule and there are committed 
reformers in the economic sector and solid leaders in the 
judiciary, in the EFCC and in the Electoral Commission of the 
country. They are committed to leading their country forward 
and to fighting corruption and extending opportunity for all.
    Nigeria's future is in the hands of its leaders, but we 
here in Washington are committed to working with them in 
partnership to advance their goals of democracy, development, 
respect for human rights, stability, peace and greater 
opportunity for all of that country's citizens.
    Thank you, Mr. Chairman, again, for this opportunity to 
speak with you this afternoon. I welcome any questions that you 
have. I have provided a longer statement for the record. Thank 
you very much.
    [The prepared statement of Ambassador Carson follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. And without objection, Ambassador Carson, your 
full statement will be made a part of the record.
    And Mr. Gast, please proceed.

STATEMENT OF THE HONORABLE EARL GAST, ASSISTANT ADMINISTRATOR, 
  BUREAU FOR AFRICA, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Gast. Good afternoon, Chairman Smith, Ranking Member 
Bass and Congressman Turner. Thank you for inviting me to speak 
with you today. It is an honor for me to appear before you 
again to discuss an important topic.
    Since 2003, Nigeria has been carrying out an ambitious 
agenda of reforms in public finance, agriculture, banking, oil 
and gas, and other sectors. Promising developments such as the 
2011 Freedom of Information bill, and the public distribution 
of government budgets are increasing transparency and providing 
better opportunities for a citizen engagement.
    However, Nigeria's uneven development has created 
conditions that threaten internal and regional security. Over 
the next 25 years, the country's population will bloom from 160 
million to more than an estimated 300 million persons further 
straining the country's ability to meet future needs. Conflict, 
whether it is triggered by political rivalries, competition for 
resources or communal ethnic or religious tension poses a 
challenge to consolidating gains and strengthening democratic 
institutions. Unless Nigerians use their resources to address 
these challenges, the destabilizing influence of violent 
extremist groups such as Boko Haram as well as conflicts in the 
Middle Belt and Niger Delta will continue to undermine 
Nigeria's aspirations toward development and its desire to play 
a greater role on the world stage.
    Consistent with the U.S. Presidential strategy toward sub-
Saharan Africa, USAID's development activities in Nigeria 
target the root causes of frustration that stoke instability 
including the lack of economic opportunity and lack of basic 
services as well as lack of participation. With 64 percent of 
the population living below the poverty line and more than 20 
percent of the population unemployed, economic growth is a 
major area of concern. Government of Nigeria reform efforts 
supported with revenue from high oil production and high oil 
prices, have contributed significantly to reduce inflation and 
strong GDP growth which remained steady in 2011 at 7.2 percent. 
While significant, this growth needs to be both increased and 
more widely distributed before it can raise Nigerians out of 
poverty.
    Oil accounts for 95 percent of Nigeria's export earnings 
and 85 percent of government revenue, yet it directly benefits 
only a small segment of the population. Agriculture, on the 
other hand, employs seven out of ten Nigerians and holds great 
potential for broad-based economic growth. We are intensifying 
our efforts in the agriculture sector by strengthening value 
chains for select commodities, those that have a ready market 
and can generate employment. Such value chains include rice, 
sorghum, and cassava. We have introduced better technologies 
for production and post harvest management. We have also linked 
farmers to markets and unlocked access to credit as well as 
improved access to fertilizer through a voucher initiative. To 
date, our flagship agricultural program has worked with 1.2 
million clients, created 160,000 jobs, leveraged $57 million in 
financing, and helped Nigerian farmers generate $260 million in 
revenue.
    Agricultural production is necessary but not sufficient for 
accelerated economic growth. Adequate infrastructure, regional 
trade and the development of other sectors are also needed. We 
are leveraging funds from the Government of Nigeria, the World 
Bank and other donors to improve roads, ports and energy 
sources. We also work closely with the government to promote 
trade by modernizing and reforming the customs system.
    In addition to addressing economic opportunities, USAID 
focuses on basic needs that affect average Nigerians. Things 
such as obtaining life saving care for infants, accessing 
treatment for malaria, confronting the challenges of living 
with HIV/AIDS, and obtaining quality education for the next 
generation. In particular, I would like to point out our active 
engagement with the Government of Nigeria in saving childrens' 
lives. Nigeria has made a commitment to its people, a 
commitment to its children to reduce substantially the under-
five mortality rate. While this rate has decreased steadily 
over the past decade, Nigeria will need to rapidly accelerate 
reductions in child mortality from the current modest 4.8 
percent per year to 13 percent in order to meet its own targets 
in 2015.
    At the recent global Child Survival Call to Action we 
joined host country governments, other donors and development 
partners to realign strategies and activities toward shared 
goals. This partnership among donors and governments is already 
saving tens of thousands of lives in Nigeria. Our work in 
primary health care has deeply engaged state and local 
governments in Bauchi and Sokoto where the program covers all 
local government areas, though we also have programs that cover 
all 36 states throughout the country.
    However, peace and stability is needed for such long-term 
development efforts to last. Since 2000, USAID has worked with 
the government to reduce violence through efforts that prevent 
and mitigate conflict arising from sectarian and ethnic 
tensions. We are also making a new effort to strengthen the 
ability of Nigerian stakeholders, including government, to 
better understand and address causes and consequences of 
violence and conflict. To this end, we also promote interfaith 
dialogue and stronger collaboration between government and 
civil society to reduce sources of tension.
    Our efforts to encourage broad based economic growth open 
an accountable governance and effective delivery of quality 
services are critical to Nigeria's stability. In light of the 
tremendous and complex needs of the country, we are increasing 
our presence in Nigeria. We are hopeful that the new generation 
of Nigerians will engage with their leadership so that the 
country will not stagnate or backslide, but rather work to 
shape a promising future.
    Thank you again for inviting me to speak before you today, 
and I welcome any questions you might have.
    [The prepared statement of Mr. Gast follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Smith. Thank you very much for your testimony and your 
service.
    I would like to begin with Ambassador Carson if I could. 
You mentioned that the administration has designated three 
members of Boko Haram as terrorists, and I am wondering if you 
could speak to why the organization has not itself been 
classified as a foreign terrorist organization.
    Are those three acting in way that is contrary or out of 
bounds with the organization itself? What would a declaration 
of that organization as a foreign terrorist organization 
provide the U.S. Government in terms of tools, and why would we 
not designate an organization that seemingly is responsible and 
claiming responsibility for horrific acts of violence? It 
appears to have at its core a radical Islamic position; I mean 
I would beg to differ with you, that somehow this is, I 
believe, at its core an attempt to impose Sharia law and to 
promote a radicalized version of Islam.
    I have spoken to many people from Nigeria and other 
countries where there has been a significant upsurge of radical 
Islamic belief. And the moderate Muslims as well as the 
Christians are equally contemptuous and fearful of our seeming 
misperception of what the real game plan is here. I think we 
have done it in places like Egypt. When people were waxing 
eloquent about the Arab Spring, I held a series of hearings on 
the impact on Coptic Christians and what that portends if the 
Muslim Brotherhood or other Islamist groups were to rise in 
power, and now the situation has gone from bad to worse for 
those believers who happen to be Christian or moderate Muslims.
    So why isn't the group designated, and those other 
questions as well.
    Ambassador Carson. Mr. Chairman, thank you very much for 
that question. Is it an important question. It is a question 
that we think about all the time. We have indeed designated 
three individuals who we think are in top leadership positions 
inside of Boko Haram to that list. But we have not designated 
the entire organization because we do not believe that Boko 
Haram is a homogeneous, homogenous organization. We believe 
that it is an organization of several parts. We believe that 
the individuals that we have designated represent a core group 
who lead a part of Boko Haram which is desirous of attacking 
not only Nigerian targets and interests but also Western and 
international targets and interests. We believe that the larger 
element of Boko Haram is not interested in doing anything but 
attempting to discredit, disgrace the Nigerian Government. 
Discredit, disgrace, and embarrass by carrying out attacks 
against Nigerian Government security and government civil 
institutions, attacking politicians, attacking government 
officials and judges. But the bulk of the organization we 
believe to be mainly aimed at going after Nigerians.
    Equally, and as you will see in my longer testimony, almost 
everything of a criminal nature that happens in northern 
Nigeria today is attributed to Boko Haram. And again, a lot of 
things that go on there such as bank robberies and assaults on 
homes and individuals are frequently labeled as attacks by Boko 
Haram and they are, in fact, only criminal activities that are 
labeled as such. We believe that designation of these 
individuals will be useful. When these individuals are 
designated it means that they are not allowed to travel into 
the United States. They would not be allowed to be given visas. 
All of their assets, if they have any in the United States, 
would be frozen and confiscated, and it prohibits any American 
national from engaging in any kind of commercial activity or 
economic or financial activity with these individuals. It also 
opens up other opportunities for discovery under Federal 
statutes which govern the work of the FBI. I might point out 
that none of the individuals here are believed to be in 
possession of U.S. visas or are likely to travel here or have 
any assets in the United States, but by designating these 
individuals as such, it certainly signals that we think they 
are in leadership positions, that they have linkages and 
relationships with AQIM, and that they are individuals of 
considerable police investigation interest to the United 
States, and it signals to others in the region and in the 
international community that this is so.
    Mr. Smith. How large is Boko Haram? Where do they get their 
money? Where do they get their weapons? When people assert that 
it was Boko Haram that did it, whether it did it, whatever 
``did it'' might be, blowing up a house, blowing up a church, 
is it that the group claimed credit for it or it becomes just a 
statement that is made by someone who has been victimized?
    And finally, how often do we actually designate individual 
members of a group especially when they are in a leadership 
capacity, and by implication are we now saying they are acting 
out of sorts from the rest of the organization by designating 
only those three and not everyone else? I mean the organization 
is really what its leadership is. Is the top leadership, other 
members not terrorists? And how often do we do that for other 
foreign terrorist organizations, just name individuals but not 
the group itself?
    Ambassador Carson. Again I would have to take the last 
question and get back to you. I am not a specialist on the 
designation of international terrorist organizations. I keep a 
fairly, regrettably, narrow focus on the 49 countries in Africa 
that I am focused on and not on the broader. But we will come 
back to you on that issue.
    I think that when an activity is carried out in northern 
Nigeria, any number of individuals have been known to say that 
this is an activity of Boko Haram. They do have someone who is 
known to be a spokesperson for the organization, but there are 
frequently claims that are made in the name of Boko Haram from 
individuals that we don't know anything about.
    Mr. Smith. Could you provide information on that for the 
record? That would be very helpful.
    Ambassador Carson. Sure, absolutely. Absolutely.
    Mr. Smith. How often it is asserted and what degree of 
confidence do we have that it is not Boko Haram that is 
actually doing it or is it just out there? I mean I remember 
with other groups like the IRA, they would claim credit and we 
took them at their word, if they blew up some soldiers or 
members of the Catholic community.
    Ambassador Carson. Sure, we can look into this.
    Mr. Smith. I appreciate that. It was stated by Ann Buwalda 
from the Jubilee Campaign, and I quote her, ``The issue is 
impunity as there seems to be no consequences to the 
violence.'' She is the executive director of the Jubilee 
Campaign, and she said, ``After thousands have been killed, the 
Federal Government in Nigeria is not doing enough to bring the 
perpetrators to justice.''
    And Archbishop Kaigama as I said in my opening comments who 
has really preached aggressively for reaching across the divide 
to build bridges with the Muslim community, he pointed out that 
other countries are not doing enough to stop the violence and 
that a peaceful resolution cannot be left to just one country, 
urging a collective effort.
    Could you speak to that issue? Are we doing enough? Are the 
others in the world, U.N., everyone else doing enough?
    Ambassador Carson. We have through our Binational 
Commission, through our bilateral discussions and engagements 
with Nigerian officials in Abuja, and also here in Washington 
on any number of occasions, offered both advice and assistance 
to the Nigerian Government on trying to tackle the problem that 
Boko Haram presents.
    Mr. Smith. What kind of assistance did you offer?
    Ambassador Carson. We have provided investigative courses, 
post blast courses, IED prevention courses and other related 
police courses that would help the Nigerian authorities, and we 
have provided forensics training and forensics experts to look 
at post blast situations and we have given them advice on how 
to prevent IEDs and other things from being used against 
facilities. We have also encouraged the government to establish 
an intelligence fusion cell which would help them to better 
integrate the intelligence that they receive from their various 
police and military and security services, and to be able to 
effectively operationalize the kinds of information that they 
acquire.
    We have to also encourage the Nigerians to do several other 
things that are critically important, and that is not to allow 
their security services and their military to carry out human 
rights abuses as they go after individuals in the community. 
And there have been many complaints that when the military has 
come into the community looking for one or two suspects in an 
individual dwelling, they leave many of the citizens and homes 
in that community in disarray. So it is important that human 
rights abuses not occur during investigations of activities.
    But let me also bring you back, Mr. Chairman, to concerns 
that I raised about Nigeria needing a comprehensive policy to 
address the problems of Boko Haram. There is a need for a good 
security policy, but there is also an equally strong 
demonstrable need for social economic recovery policy for the 
North. I know that the level of income in Nigeria is relatively 
low given its vast oil reserves, but any figures, and we 
certainly can provide you with many of them, demonstrate that 
the economic conditions in northern Nigeria are some of the 
very worst, not just in Nigeria but across Africa.
    The infant mortality rates are among the lowest in the 
world. Mothers who die during childbirth among the highest in 
the world. Access to clean water among the lowest in the world. 
Illiteracy, especially among women, some of the highest in the 
world. Infrastructure among the weakest, and unemployment and 
underemployment well over 50 percent across the North and 
particularly in the North and the northeast in the area of 
Borno. I know that people will make comparisons to other parts 
of Nigeria which are also deserving of attention, but the 
problems in the North are some of the most egregious.
    I would remind people that the phenomena of Boko Haram is 
one of discrediting the Central Government in power for its 
failure to deliver services to people. The current President, a 
Southerner, a Christian, has been in office for less than 1\1/
2\ years and before that was effectively only Acting President 
for approximately 6 months. His predecessor was indeed a 
Northerner, the late Yar'Adua. Boko Haram's emergence as a 
terrorist organization in Nigeria predates the current 
government, and irrespective of whether there is a Christian 
leader or a Muslim leader in the country, as long as the social 
economic problems exist in the North to the extent that they 
do, there will be a reaction which may, in fact, as this one 
does, take on political consequences.
    Mr. Smith. If I could, if you could answer, how big is Boko 
Haram? Where are they getting their weapons? Are the IEDs 
coming from Iran, for example? You just called it a terrorist 
organization. Why isn't it designated a terrorist organization 
with the implications that would follow from that?
    And I think it is all too convenient to suggest that 
somehow just because there are deprivations, somehow people 
then automatically know Osama bin Laden was rich. Idealogy that 
is highly, highly radicalized may exploit poverty at times, but 
poor people don't necessarily become terrorists and killers. 
That is an insult, frankly, to poor people. I think we made the 
same mistake, with all due respect, with South Sudan.
    I remember raising that myself throughout that entire 
conflict that the imposition of Sharia law on Catholics and 
Animists was largely underplayed. The U.N. did very similar 
things vis-a-vis the former Yugoslavia when it attributed guilt 
almost on an equal basis with what Slobodan Milosevic was 
doing. And I say for the record, no one did more to try to help 
the Muslims in the former Yugoslavia than I did. Working around 
the clock particularly in places like Srebrenica when 8,000 
Muslim men were mustered, I sat at a hearing with a translator 
that was with the Dutch peacekeepers when Milosevic and the 
Dutch peacekeeper separated the men from the women and took 
them to a slaughter that lasted for approximately 7 or 8 days. 
I was there for one of the internments, worked very closely 
with the Grand Mufti from Sarajevo, Reis Ceric. But even the 
modern Muslims will recognize and say you folks, us, Americans, 
the West, so underappreciate radical Islamic fervor to kill and 
maim and terrorize. And I get the same, and we all have gotten 
the same reports from Christians who have now exited enmasse or 
be killed, from Iraq, suggesting that it was much better Saddam 
Hussein than it is under the current-day situation.
    So how big is Boko Haram; where is it getting its money? 
And if there are things that need to be conveyed to the 
subcommittee secretly we would welcome that to get a better 
handle as to why it has not been designated a terrorist 
organization. What is the reason? Please.
    Ambassador Carson. Thank you, Mr. Chairman, for your 
comments. I can't tell you exactly how many members there are 
in Boko Haram. We know that the----
    Mr. Smith. Do you have an estimate though?
    Ambassador Carson. I will ask our colleagues in the 
intelligence community to see what they have in terms of an 
estimate. Certainly the core group probably numbers in the 
hundreds so there is probably an estimate. But the precise 
number I can't tell you.
    Where do they get their money and their arms? They probably 
get a lot of their money from engaging in criminal activities, 
robbery and extortion. And so you can look at that as a source. 
Arms are fairly easy to acquire when you have money, and that 
money can buy lots of arms across Africa. They are probably 
buying the kinds of things that they need to make IEDs locally 
for the most part. What they do get from the linkages that they 
have with AQIM is the sophisticated training that gives them a 
knowledge of how to put together these kinds of devices.
    Mr. Smith. Do we have any evidence that it is coming from 
Iran? I mean those IEDs, I remember on trips to Iraq myself, as 
it became increasingly known that those very sophisticated IEDs 
were killing Americans, wounding Americans and our allied 
coalition.
    Ambassador Carson. I am not aware of any weapons coming 
into northern Nigeria from Iran.
    Mr. Smith. Any money from Saudi Arabia that we----
    Ambassador Carson. But again I am not aware of it. As I say 
the elements that comprise most of the vehicle-borne explosives 
and bombs as well as IEDs are things that can be acquired 
locally. It is the sophistication and the ability to put these 
things together that is acquired as the result of the linkages 
that are had with other organizations that have carried these 
things out in other parts of Africa.
    Mr. Smith. Thank you.
    Mr. Gast, if I could ask you a few questions and then I 
will yield to my friend and colleague, Ms. Bass.
    Earlier today I spoke at the Interagency Autism 
Coordinating Committee or IACC. It is an organization I wrote 
the legislation for back in 2000, and I am also the prime 
author of the Combating Autism Reauthorization Act of 2011, 
putting money into our all-out effort to combat autism 
domestically. And I pointed out to the members, including the 
NIMH director, Dr. Insel, that we had a hearing last year 
focusing exclusively on the global phenomenon, a very dangerous 
one, of autism. The estimates are, and it is a guesstimate, 
that there are as many as 67 million autistic children 
throughout the world. In Africa, WHO suggests the number is in 
the ``tens of millions.'' They don't have a better more finely 
honed number than that but it is huge.
    We had a woman from Cote d'Ivoire testify, who actually 
became an American, who talked about the absolute dearth of 
services for autistic children.
    And on one particular trip that I made on behalf of the 
human trafficking issue, because I wrote that law too, when I 
was in Lagos, I spoke to a large group of people on the 
sanctity of life in the unborn, newly born, all vulnerable 
people, on human trafficking, I had a man come up who said, 
what are you doing for autism in Nigeria? I have been working 
with him and others throughout Africa ever since and they are 
still--I even have a pending bill we are trying to get to 
enhance, something you could do administratively, to help 
combat autism worldwide. We are planning another hearing 
shortly that will focus on where we go from here.
    And I asked the IACC if they would do more in sharing not 
with you and others but also with our African friends who are 
so desperate for technical and financial assistance to mitigate 
the impacts of autism which is devastating the continent and it 
is a silent killer. It is just like AIDS in terms of 
prevalence, not quite as much, but right in the ballpark. And I 
saw it in Lagos, I saw it elsewhere when I visited NGOs. So if 
you could maybe speak to that as number one.
    Secondly, on trafficking, and again I wrote that law, the 
Trafficking Victims Protection Act, and we were very, very 
encouraged when Nigeria achieved Tier I status. But this year 
it slipped back to Tier II largely because of a lack of law 
enforcement, according to the just recently released TIP 
Report, which is regression when it comes to modern-day 
slavery. Red flags should be going up everywhere, and I am 
wondering what you all are doing to try to help turn that 
around particularly with the President and others.
    Third, if I could, yesterday I chaired a heartbreaking 
hearing on Chinese barbaric anti-woman, anti-child course of 
population control program. For over 30 years the UNFPA, the 
U.N. Population Fund has significantly enabled and supported 
China's one-child-per-couple policy which has slaughtered 
countless babies, made brothers and sisters illegal, and has 
devastated the lives of women. Approximately 500 women per day, 
not per week or per month, but per day commit suicide in China. 
And I have met, and we had one woman testify yesterday who is 
broken, years later, after having her baby ripped out of her 
womb and killed by the state. Throughout the entirety of the 
33-year program, UNFPA has emphatically said that the program 
is voluntary and must be replicated in other nations. One 
leader of UNFPA after another including the current, a 
Nigerian, executive director of the UNFPA has said, ``Export 
it.''
    A couple of years ago several health ministers from Africa 
were all invited to Beijing where the so-called State Family 
Planning Council of China and the U.N. Population Fund feted 
this Potemkin village effort to say if you want economic growth 
you need child limitation policies.
    And let me just say parenthetically, Mr. Gast, I have read 
Margaret Sanger's books. She even had one called, ``Child 
Limitation.'' She wrote a book called, ``The Pivot of 
Civilization.'' She was a known eugenicist and a known racist. 
She is the founder of Planned Parenthood. And I have read her 
books, not every one of them but I have read several of them, 
and she wrote a chapter, chapter five, of ``The Pivot of 
Civilization'' that was entitled, ``The Cruelty of Charity.'' 
And she said, we do not want dysfunctional people, useless 
eaters and certainly African Americans, Africans in general, 
Latinos, Irish, Catholics. There was a whole group of people 
that she construed to be subhuman that were not eligible for 
being part of--she founded Planned Parenthood. Well, that 
agenda in my opinion is now in full stride but heavily 
stealthed and heavily concealed for what it is all about.
    I was very concerned last year when AFP reported that U.S. 
population control enthusiast, Jeffrey Sachs, urged Nigeria to 
adopt a three-child-per-couple limitation on children, and all 
the same arguments were made for China back in the 1970s that 
led to the '79 one-child policy into effect. And now I know Mr. 
Jonathan has talked openly about embracing the three-child 
policy just like Paul Kagame in Rwanda.
    So I just have a very specific question which you could 
answer now or take back, but in the interest of our oversight 
capacity I would love to know very precisely the answers to 
these questions. Has the administration suggested or pushed in 
any way child limitation policies anywhere in Africa including 
in Nigeria? Exactly what role, if any, from both a funding 
point of view and policy initiatives has the United States 
played either directly or indirectly through NGOs, 
organizations like the U.N. or UNFPA or any other group like 
that or groups, lending organizations like IMF or World Bank or 
like-minded organizations, to support child limitations 
policies in Africa as well as in Nigeria? And are any U.S. 
foreign aid dollars in any way conditioned on whether or not 
child limitation policies are being promoted domestically?
    I have lost track, and I say this with deep respect, of how 
many diplomats have told me at the United Nations, have told me 
when I have been in-country how they have been bullied. They 
have been told that if you want foreign aid you need to get 
with the program of child limitation policies. Very often they 
are loathe to say publicly out of fear of retaliation. I was at 
the Cairo Population Conference and I had several, not only 
Africans, but also Latin American diplomats who told me that, a 
few have been on the record, and they have told me that they 
were retaliated against or at least they were threatened. So to 
me this is extremely important. I asked Secretary Clinton this 
question. I am still waiting for an answer on foreign aid in 
general. She did get back and say that IMF, World Bank has no 
conditionality vis-a-vis child limitation and abortion 
policies, and I do hope that is the true policy.
    But if you can get back to or answer that directly I would 
deeply, deeply appreciate it. And I do have a few other 
questions but I guess that is a good start if you could, Mr. 
Gast.
    Mr. Gast. Mr. Chairman, I'll start with your third question 
on child limitation. As you defined it, child limitation 
meaning the state dictating the number of children that a 
family can have, I can assure you that USAID policy is not 
supportive of that.
    Mr. Smith. And that would be encouraging as well, not just 
dictating?
    Mr. Gast. No. No, not encouraging as well. And we have not 
spent resources or conditioned resources on that. I would be 
more than glad to share with you with regard to Nigeria----
    Mr. Smith. Please.
    Mr. Gast [continuing]. Our health policy agenda that we 
have with the Nigerian Government, but I assure you that it 
does not include child limitation.
    Your other two issues really are on human rights, autism 
and trafficking. And let me just mention that we absolutely 
support human rights directly through our work with civil 
society organizations, advocacy with the government. And one of 
the main issues that we have worked on over the last 4 years, 
the bill is sitting right before the President, and that is the 
rights for disabled persons. There are an estimated 20 million 
disabled persons in Nigeria, many of whom are discriminated 
against and many of whom do not have the services that they 
need to function. I can give you plenty of stories and I know 
that you have many stories as well, Congressman.
    So within that is also support for children who suffer from 
autism. We are not directly supporting any of the work of very 
good groups, NGOs as well as faith based groups, but we do 
coordinate with them. And they have been very active in the 
advocacy area in supporting the passage of this policy.
    Mr. Smith. I appreciate that. And on the trafficking?
    Mr. Gast. On the trafficking issue you are absolutely 
right. The report concludes that it has been the lack of 
enforcement which dropped it into Tier II status.
    Mr. Smith. Thank you.
    Ms. Bass?
    Ms. Bass. Thank you. Actually I want to follow up on what 
you were just saying. You said that there was a bill before the 
President about the disabled, and I am assuming you are talking 
about President Jonathan.
    Mr. Gast. Yes.
    Ms. Bass. And what is the bill? I mean what does it say?
    Mr. Gast. What it does is it mandates, much like what we 
have here in the United States that public institutions and 
public buildings provide access and teaching for people with 
special needs.
    Ms. Bass. Great, I appreciate that. So I want to ask a 
series of questions basically in three categories. One is about 
Boko Haram, the other is about corruption and then finally 
about USAID. And in general what I want to ask about USAID are 
some specific examples, if you could elaborate more, on 
programs. But when it comes to Boko Haram I think it has even 
been clear, Ambassador Carson has said several times that one 
of the primary goals is to discredit the current government. 
And I wanted to know toward what end. You know what I mean? In 
other words, oftentimes if you are going to create disruption 
or chaos you do have an end in mind. So what is the end? Are 
they trying to take over? It is only a couple hundred people so 
what is their objective?
    Ambassador Carson. I think it is an attempt to both 
discredit and to bring attention to the concerns, grievances, 
legitimate or illegitimate, of the people who are carrying out 
the activities. And there is indeed, by pointing out the 
enormous economic deprivation that exists in northern Nigeria 
is not to suggest that poor people are terrorists, but it is to 
suggest that that kind of environment helps to generate and 
feed upon the notion that the government is not providing 
adequate service delivery in all segments to the people of the 
country. And I think it is largely an effort to embarrass, 
discredit, bring attention to a set of grievances.
    But I think the core elements of Boko Haram are also 
ideological in their orientation. I do not think they represent 
the views of the larger Muslim population that exists across 
Nigeria, but it is the notion that they have a set of 
grievances. But one of the things that has happened is that 
Boko Haram's leaders do not, in fact, put down on a piece of 
paper what they are actually striving for. And one of the 
things that the government has frequently said is, come forth 
and tell us what it is that you want or want us to do. And they 
don't do that.
    Ms. Bass. And I appreciate you pointing out that 
individuals who are identified as terrorists as opposed to the 
overall organization, and is the reason for that, I mean do you 
feel that if the organization was labeled that, that it would 
embolden them? In other words, it would increase their status 
if they were designated that way?
    Ambassador Carson. I think, Congresswoman Bass, it would 
serve to enhance their status, probably give them greater 
international notoriety amongst radicial Islamic groups, 
probably lead to more recruiting and probably more assistance. 
So that is one of the concerns that we elevate them to a higher 
level and a higher status than they deserve. But these three 
individuals and particular individuals who have shown desire 
not just to go after the Nigerian Government and Nigerian 
interests, but to go after larger Western, including American 
interests, and there is, in fact, a big distinction there, they 
are prepared to go after larger interests beyond those that are 
Nigeria and discrediting and embarrassing the Nigerian 
Government.
    Ms. Bass. And how would you assess the Jonathan 
administration's strategy toward countering terrorism? I wanted 
to know that in general, but also to what extent are Nigerian 
intelligence and security forces cooperating with those of 
neighboring countries where AQIM is believed to operate, and 
where some members of Boko Haram have reportedly been trained?
    Ambassador Carson. Let me say that the government could be 
doing better both in trying to combat the Boko Haram threat and 
they certainly could be doing better in trying to increase 
service delivery across the north. I know that the government 
in neighboring states particularly Niger and Cameroon, to a 
certain extent, Chad, are all concerned about the Boko Haram 
threat because many of the people who live in southern Niger, 
southern Chad and in the northwestern part of Cameroon as well 
as going over across Benin and the upper parts of parts of 
Benin and Togo, are all ethnically linked to the same 
linguistic in the communities. So there is this concern about 
the spread of this kind of violence into their own countries.
    Ms. Bass. One topic that we haven't talked about so far 
today is the drug issue, the drug trafficking. And I wanted to 
know if you could comment about that. Especially if there is a 
relationship, what is the Jonathan administration doing to 
address drug trafficking? Is there a relationship between Boko 
Haram and the drug industry?
    Ambassador Carson. I am not aware of any major links or 
connectivity between drug trafficking and the financing of Boko 
Haram. We do know that drug trafficking is a major problem all 
along the West African coast. It continues to be a serious 
problem in Nigeria because of the use of human traffickers 
moving drugs and because of the use of Lagos port and the 
airport for movement of narcotics into West Africa and into 
western Europe. So it is an issue.
    I must say that a decade, a decade and a half ago we were 
in engaged very intensely with the Nigerians on trying to bring 
issues of drug trafficking under some control. We had developed 
a number of programs. They have certainly been far, far more 
responsive and attentive to these issues in the last decade 
than they were a decade ago. But drug trafficking is a problem 
and this is largely a result of coming out of Central America 
across the Atlantic all along the West African coast.
    Ms. Bass. And what actually are we doing to improve 
Nigeria's ability to control and patrol its waters?
    Ambassador Carson. Well, we, through the Department of 
Defense and AFRICOM, have maritime security programs in which 
we work with the Nigerian Navy and Coast Guard as well as with 
the navies of a number of West African states. We provide 
training. We, once a year, send an American frigate along the 
coast of West Africa where we invite coast-country sailors and 
naval officers to come aboard to look at how we monitor illegal 
traffic, how we improve port security, and these programs have 
been very effective in helping to train and improve the skills 
of Nigerian naval officers as well as naval officers along the 
West African coast; it is called the Africa Partnership Station 
and it is a very effective program. But we send naval trainers 
to the region to help in improving port security, management of 
shipping, patrolling of territorial waters for both illegal 
fishing as well as illegal navigation. So these things are very 
important.
    Ms. Bass. Excellent. And moving on to corruption, I wanted 
to know your opinions about what steps President Jonathan is 
taking to counter corruption. What is your assessment of the 
Economic and Financial Crimes Commission, and what assistance, 
if any, is the United States or other donors providing to the 
EFCC to increase its capacity?
    Ambassador Carson. One of the things that we can say that 
is very positive about the administration of President Goodluck 
Jonathan is that he has put in place a very, very strong 
economic team. And I could go into that a great deal, but 
suffice it to say that the former Vice President of the World 
Bank, Dr. Ngozi, is the economic czar there, but equally 
important they have a very good Minister of Industry who was a 
former Finance Secretary. They have an excellent Minister of 
Agriculture and they have a very good Energy Minister.
    Equally, on the financial issues of corruption one of the 
great concerns that we had during the era of President Yar'Adua 
and the transition when President Goodluck Jonathan was Acting 
President, was the ineffectiveness of the then Economic and 
Financial Crimes Commission Chairperson. We thought that person 
was doing certainly a less effective job than her predecessor 
and certainly not moving forward with the kinds of 
investigations and prosecutions that we thought should be done. 
We have engaged and we have talked to the Nigerian authorities 
about this. Two of the better appointments on the corruption 
side mirroring what has been done largely on the economic side, 
are the two principal people responsible for the battle against 
corruption in Nigeria. There is, in fact, a new Economic 
Financial Crimes commissioner. It is Ibrahim Lamorde, a person 
well known to us. Someone who has been to the United States. 
Someone who has shown a great deal of commitment to moving the 
process forward against individuals. We see his appointment as 
a very positive sign. He was here in early June at the last 
Binational Commission.
    Equally important is the reappointment of Mr. Nuhu Ribadu 
to take over a new commission that is supposed to audit the 
finances of the national oil company and manage and look at 
where the revenues from the oil industry are going.
    Ms. Bass. Is that in part to----
    Ambassador Carson. Mr. Nuhu Ribadu, he is excellent. He had 
at one point been head of the EFCC, and because he, in fact, 
brought effective prosecutions against senior government 
officials was fired during the last days of the government of 
President Obasanjo. But Nuhu Ribadu, a committed reformer, a 
committed fighter against corruption along with Ibrahim Lamorde 
are indications that there is a seriousness of purpose by the 
government to fight corruption. Lots needs to be done. It has 
been a systemic problem in Nigeria for decades, but there are 
two people there matched up with the economic team who show 
commitment that they are prepared to take this task on.
    Ms. Bass. Excellent. Thank you. And then finally moving to 
USAID and wanting you to give me a couple of examples. Is it 
accurate to say that northern Nigeria states of Bauchi--excuse 
me if I am mispronouncing it--or Sokoto, are the ones that are 
designated for so-called flagship programs that you were 
describing in Nigeria? And I wanted to know if you could give 
some more specific examples about what the programs entail and 
how would you assess the capacity and political will of these 
states' governments to address development challenges?
    Mr. Gast. Thank you, Congresswoman Bass. Let me just start 
off by one thing. If you look at our programs you will see that 
approximately 90 percent of the funding, significant funding, 
over $600 million a year is directed in the health area, and 
that is largely because of need. If you look at under-five 
mortality, Nigeria ranks in the bottom five. And if you 
disaggregate that within country and look at the northern 
states, the rates are far worse than the average for the 
country. It has the second largest population living with HIV/
AIDS in the world. There is the wild polio virus, maternal 
mortality is at the bottom and vaccination rates are low. And 
that is why we have a particular focus on health. However, it 
doesn't mean that we focus on health at the exclusion of other 
areas, and so we also have a robust agriculture program, also 
an energy program because the lack of power is recognized as a 
major constraint to further economic growth.
    One of the things that we can best do in working with the 
Nigerian Government is help it better spend its own resources. 
It has significant resources. Ambassador Carson mentioned the 
Minister of Finance, Ngozi. One of the things that she has done 
very early on in her tenure is publish the expenditures of the 
government. Nigeria is extremely decentralized. Some have said 
it is even more decentralized than the U.S. So the 
implementation of programs really rests with the individual 
states and with the local government authorities within the 
states, and along the way there are leakages.
    Now we chose several years ago, Bauchi and Sokoto, based on 
their own willingness to work with us as partners but also 
based on performance criteria. And that means spending budgets, 
their own budgets, to support the basic needs of their 
population as well as transparency, and also looking at factors 
like corruption. So it means that we have an intensified effort 
with those two states. We would like to do more in the north 
but it is extremely difficult to work in the north because of 
the insecurity. So we have partnerships with both states and it 
is helping the government deliver the services directly to the 
people, and that means building their capacities. Building 
their capacities on the procurement side. Building their 
capacities on the service delivery. And where the government 
can't deliver services to the people, then we, in parallel, are 
working with the government to put a government face on 
delivering services.
    Ms. Bass. Thank you. Thank you very much. I did ask one 
question in my opening about the petroleum and the U.S. 
companies' involvement in the flaring gas, and I wanted to know 
if someone could address that. Does that happen in our 
companies or are there----
    Ambassador Carson. Yes. Let me respond to that if I could 
very briefly. All the U.S. companies comply with Nigerian law 
and regulation. And American companies operating in Nigeria 
recognize that flaring of gas is an inefficient use of a 
valuable natural resource. They also recognize the 
environmental issues that come with flaring of gas, and many of 
them have on more than one occasion argued that there should be 
infrastructure and regulation and law put into place that would 
effectively use this gas for generation of electricity and 
other valuable commodities. But that infrastructure, that 
regulation does not exist for the most part, and they along 
with many other companies operating there do, in fact, flare 
gas as the----
    Ms. Bass. Why don't they build the infrastructure?
    Ambassador Carson. I think it would take an enormous amount 
of money to do so and I think it would have to be done 
collectively and with some kind of regulation which does not 
exist.
    Mr. Gast. If I may add, as Ambassador Carson pointed out, 
the government loses significant revenues. We estimate about 
$2.5 billion a year in gas flaring. And as the Assistant 
Secretary pointed out, the problem is really the lack of 
regulatory reforms that would allow the commercialization of 
the energy sector. Because once you have tariffs that are based 
on market prices, then it makes it economically viable to use 
the gas that is now flared as a fuel for natural gas power 
plants. So we are working with the NERC, the regulatory 
commission, and the government to begin a process of increasing 
the tariffs for power.
    Ms. Bass. Okay. I guess I am just a little confused at our 
companies, because it sounded like you said that until there is 
a way to market it they can't help build the infrastructure?
    Mr. Gast. So it is not economically viable now. Because if 
they were to use it as a fuel, as a source of fuel for power 
plants, they would not be able to collect the revenue necessary 
to offset the investment cost.
    Ms. Bass. Okay, thank you.
    Mr. Turner [presiding]. Thank you. Representative Jackson 
Lee?
    Ms. Jackson Lee. Chairman and Ranking Member, thank you 
very much for your courtesies extended. I think I am going to 
focus on just one global question, Ambassador Carson. And to 
Mr. Gast, and you might contribute maybe from the perspective 
that you would know.
    We all have our challenges, America has hers, and my 
colleagues who are here in the Foreign Affairs Committee, why I 
enjoy the opportunity to participate so much, because we are 
all seeking a common ground in this committee. But we know that 
the floor of the House now debating the repeal of the health 
care bill shows that we in America have disagreement, and I 
accept that premise.
    But as a student of Nigeria, having had the opportunity to 
study, to live in Nigeria and to have found ourselves viewing 
Nigeria as one of our strongest allies for decades both in 
terms of friendship, terms of student exchange, terms of 
population growth. First in Atlanta and then in Houston has the 
largest population of Nigerians in the United States outside of 
the legacy of Brazil which has the tracking of Nigerians to 
Brazil.
    So this dilemma that focuses on my city, since I am known 
to have come from the oil capital of the world, and we have 
many, many dealings with Nigeria, and my friend from California 
was asking about why the corporations can't do more, and 
frankly, I think some progress has been made but certainly the 
investment of oil profits has always been an issue, not only by 
the corporation, the U.S. corporation, but by the country 
itself. So the Boko Haram actions outrages me. And I would be 
equally outraged if I was a Christian driving into a mosque and 
attempting to disrupt the faith, people who are practicing 
their faith. I have gone to church in Nigeria. I worshiped in 
Nigeria.
    And we also know that Nigeria, no matter who the President 
is, and we, as a sovereign nation, Ambassador Carson, respect 
the leadership of nations. We will not only reach out but we do 
do more than that when there are severe human rights 
violations. While I am not saying we affirm all sovereign 
states, but we have tried to work with the heads of state of 
Nigeria.
    So here is my question. Why have we come to this? Why have 
we come to this? I ask this to the globalness of Nigeria. I ask 
this to the disparate views in Nigeria. I ask this to the 
tribal legacies of Nigeria, which I am very well aware of, and 
some people adhere to it and some don't. But you have a nation 
that has had 50 years plus, maybe not the best, of involvement 
with Western companies, and I certainly don't support that 
legacy as being perfect.
    But are we at a point of organizations like the Boko Haram, 
near like al-Qaeda, why this divide between north and south? 
When I traveled in Nigeria as a student and went to school I 
did not have that understanding. I have the understanding much 
more now that Abuja being the capital and being in the North, 
but I did not have that understanding. Why are Nigerians facing 
Nigerians in conflict? That is not something that I can 
understand. And I see some frowned faces here, but you have 
northerners going into Christian churches, what are you doing 
that for? But more importantly, let me just pose the question. 
Why are we at this point of conflict?
    And you can just finish the answer with us being more 
vigorous, meaning the U.S., in our intervention and assistance 
in what may potentially be a very dangerous condition in that 
country being so large. It is the only question I have.
    Thank you, Mr. Chairman. Thank you to the ranking member.
    Ambassador Carson. Congresswoman Jackson Lee, first of all, 
thank you for the question. Secondly, I am not going to be able 
in a----
    Ms. Jackson Lee. Time frame.
    Ambassador Carson [continuing]. Short period of time to----
    Ms. Jackson Lee. I understand.
    Ambassador Carson [continuing]. Do justice with the kind of 
comprehensive response that you seek and deserve. Let me just 
make several quick global points.
    First of all, we here in Washington recognize Nigeria to be 
one of the two most important countries in sub-Saharan Africa. 
We look at it as Africa's largest democracy, our largest 
trading partner, our fifth largest supplier of crude oil, and a 
country that we seek to strengthen, deepen and broaden our 
relationship with. So Nigeria is legitimately of great 
significance to us, and we don't want to ignore it.
    Secondly, Nigeria faces the kinds of dilemmas that many 
African states have because of the large number of different 
ethnic and linguistic and religious groups that exist there. 
But the country, the people, have decided over time that the 
best way to manage the country, the governance, the society is 
through democratic means and democratic ways. I think we are 
seeing the kind of problems in northern Nigeria with respect to 
Boko Haram which does not represent the vast majority of the 
people in the North, which does not represent the views of the 
overwhelming number of Muslims, and who are a small group of 
individuals. But they are indeed trying to play on the effort 
to discredit, embarrass and to undermine the credibility of the 
central government.
    And it is not just a central government led currently by a 
Christian leader. I want to point out again that Boko Haram was 
active under President Yar'Adua, the now deceased President as 
well. But the sense of hopelessness that build upon a lack of 
service delivery, a lack of opportunity, a lack of hope helps 
to contribute to this.
    Mr. Turner. I thank you, Mr. Ambassador, Mr. Gast. We have 
another panel actually, and we have kind of overstayed. But I 
want to thank you for your comments and I will continue to try 
and get an answer on the FTO for, as we go forward. I heard you 
were good. I had no idea.
    Ambassador Carson. I would be glad to share with you. We 
will certainly make my comments on the record known to you and 
I would be glad, Congressman Turner, to come up and talk in 
greater detail about it as well.
    Mr. Turner. Thank you, Mr. Ambassador and Mr. Gast.
    So that panel is dismissed, and if the second panel----
    Ambassador Carson. We will follow up.
    Mr. Turner. You ready?
    Thank you. We will come to order. Allow me to introduce the 
panel. Pastor Ays Oritsejafor. How did I do, not too good?
    Mr. Oritsejafor. Not bad.
    Mr. Turner. Didn't seem right.
    Of the Christian Association of Nigeria, Pastor Oritsejafor 
is a minister from Delta State in Nigeria. He has taken his 
ministry to various local and international conferences in over 
50 countries. The pastor has a television program and is a 
prolific author. As president of the Christian Association of 
Nigeria, he is on the front lines of the Muslim-Christian 
conflict in Nigeria and will speak to the ways in which 
Christians are increasingly coming under attack.
    We have Dr. Darren Kew, University of Massachusetts, 
Boston. Darren Kew is an associate professor of conflict 
resolution and the executive director of the Center for Peace, 
Democracy and Development at the University of Massachusetts, 
Boston. He studies the relationships between conflict 
resolution methods particularly interface and interethnic 
peacebuilding, and democratic development in Africa. Much of 
his work focuses on the world of civil society groups in this 
development. He has also been a consultant on democracy and 
peace initiative to various governments and nongovernment 
organizations. He monitored the last four Nigerian elections 
and is author of numerous works on Nigerian politics and 
conflict resolution. Dr. Kew.
    And we have Mr. Anslem Dornubari John-Miller, The Movement 
for the Survival of the Ogoni People. Mr. Anslem Dornubari 
John-Miller served as the chairman of the national Caretaker 
Committee of the National Union of Ogoni Students as well the 
Movement for the Survival of the Ogoni People, the parent body 
under which the Ogoni nonviolent struggle in environment and 
social justice is being carried out.
    While in a refugee camp in Benin, he founded the National 
Union of Ogoni Students where he educated the public on the 
situation in the land as well drew attention to the plight of 
the refugees who were predominantly students and youths. Once 
settled in the United States in 1996, he continued to work for 
Ogoni people where his efforts resulted in the resettlement of 
over 1,000 families in the U.S.
    I welcome you and if you would, keep your statements, 
please, to 5 minutes and we will then go into questioning, 
okay?
    Pastor?

   STATEMENT OF PASTOR AYO ORITSEJAFOR, PRESIDENT, CHRISTIAN 
                     ASSOCIATION OF NIGERIA

    Mr. Oritsejafor. Thank you very much. The chairman and 
members of the subcommittee, I want to thank you for the 
opportunity to address this committee and for your interest in 
the situation in the Federal Republic of Nigeria, and 
especially the increase in terrorist attacks targeting 
Christians and Christian institutions. Just this last weekend, 
58 people were killed in Christian villages in Jos including a 
Federal senator and state lawmaker. Boko Haram already claimed 
responsibility for these coordinated attacks against the 
Christian community in Jos, and they also reaffirmed their 
earlier position saying that for Christians in Nigeria to know 
peace they must accept Islam as the only only true religion.
    Boko Haram is not a northern problem, but a Nigerian 
problem with global implications. Nigeria is not a country 
divided by north and south, but a country divided between those 
who support freedom and equality in the eyes of the law, and 
those who promote persecution and violence as a means to an 
end. To an outside observer it may appear as though Boko Haram 
is not a monolithic group, that it is fragmented and 
disorganized. I am here today to give you the Nigerian 
perspective.
    Since its creation, the Boko Haram network has never hidden 
its agenda or intentions. Boko Haram has openly stated that 
they reject the Nigerian State and its Constitution and seek to 
impose Sharia law. To this end, Boko Haram has waged a 
systematic campaign of terror and violence. They seek an end to 
Western influence and the removal of the Christian presence in 
Nigeria. This is outright terrorism. It is not legitimate 
political activity or the airing of grievances.
    By refusing to designate Boko Haram as a foreign terrorist 
organization, the United States is sending a very clear 
message, not just to the Federal Government of Nigeria, but to 
the world that the murder of innocent Christians, and Muslims 
who reject Islamism, and I make a clear distinction here 
between Islam and Islamism, are acceptable losses. It is 
hypocritical for the United States and the international 
community to say that they believe in freedom and equality when 
their actions do not support those who are being persecuted. A 
nondesignation for the group only serves to hamper the cause of 
justice and has emboldened Boko Haram to continue to strike out 
at those who are denied equal protection under the law.
    The frequency, lethality and sophistication of Boko Haram's 
attacks raise disturbing questions regarding training, 
logistical support they have received from other like-minded 
international terrorist networks. In January 2012, the United 
Nations Security Council published a report stating that Boko 
Haram members from Nigeria received training in AQIM camps 
located in Mali and Chad during the summer of 2011. That same 
summer, Boko Haram carried out a bold terrorist attack against 
the United Nations building in Abuja. Boko Haram did not 
hesitate in claiming responsibility for the attack nor has it 
ever hesitated in claiming responsibility for its ongoing 
attacks against police, military, local businesses and 
increasingly churches and Christian institutions.
    In Nigeria, my people are dying every single day. And it is 
only a matter of time before the international terrorist links 
and anti-democratic Islamist agenda of Boko Haram turns its 
attention to the United States. In fact, this may already be a 
reality, because in April 2012 the NYPD learned that a U.S. 
citizen or resident living on the East Coast had sent 
surveillance including maps and photographs of lower Manhattan 
and the Holland and Lincoln tunnels to an alleged member of 
Boko Haram based in Nigeria.
    The State Department designated Boko Haram's current 
leader, Abubakar Shakau, and two others as special designated 
terrorists, but fell short of designating the organization. 
This would be the equivalent of designating bin Laden as a 
terrorist but failing to designate al-Qaeda as a terrorist 
organization.
    Although I am aware that the designation of Boko Haram as 
foreign terrorist organization is not the final solution to all 
of Nigeria's problems, yet it is an important first step toward 
restoring the confidence of those who support freedom and 
equality in the eyes of the law. We to want to have freedom, 
freedom of religion, freedom to worship as we choose without 
fear. We want to have justice based on equality and not driven 
by discriminatory religious practices.
    Let me remind us that this is not about economics at all, 
but about an ideology based on religious intolerance that has a 
history of sponsoring genocide across the globe. As Boko Haram 
increasingly turns toward genocide through the systematic 
targeting of Christians and Christian institutions in pursuit 
of its goals, history will not forget the actions or inactions 
of your great nation.
    I thank you for this opportunity and I look forward to 
continuing our strong partnership with the country of America.
    I thank you again, Mr. Chairman. Thank you very much.
    [The prepared statement of Mr. Oritsejafor follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Turner. And thank you, Pastor.
    Dr. Kew?

 STATEMENT OF DARREN KEW, PH.D, ASSOCIATE PROFESSOR, MCCORMACK 
      GRADUATE SCHOOL, UNIVERSITY OF MASSACHUSETTS BOSTON

    Mr. Kew. Thank you, Mr. Chairman, and my thanks to the 
entire committee for inviting me to speak. I was asked to speak 
on Muslim-Christian relations in Nigeria, and I have submitted 
written testimony. I am going to just read some of the 
highlights for you here now.
    I think the key theme that I would like to start with is 
that there is not a grand conflict yet between Islam and 
Christianity in Nigeria, rather there is a collection of 
smaller conflicts that engage religion in different ways. And 
now we have this new challenge from Boko Haram that is trying 
to frame Nigerian politics in a religious light. And there are 
other actors that are trying to do so and to stitch these 
different conflicts together, which is why I think U.S. policy 
has to be very careful so as not to be perceived as taking one 
side or the other. I think that this would make things worse 
and would play into the hands of Boko Haram and others, and I 
will explain what I mean by that in a minute.
    I do think that United States policies should take actions 
to isolate the extremists in these movements from the moderates 
and to reinforce Nigeria's own capacity to manage its own 
conflicts. Let me just aggregate these different conflicts a 
little bit so I can explain what I am saying.
    There are multiple trends across, aggravating the 
Christian-Muslim divide in Nigeria and, I think, are 
responsible for the overall recent escalation. I think one of 
the overarching trends we need to begin with is very important, 
we don't hear as much about is the dramatic demographic that 
has happened in Nigeria over the last 20 years which is the 
rapid rise in the number of Christians across the Middle Belt 
and the northeast. This entire region, and in parts of the 
north as well, has seen the number of Christians nearly double 
every decade since at least the late 1970s. So this entire area 
is currently undergoing the sorts of growing pains that you 
would expect from any sort of society undergoing such rapid 
demographic transitions. And naturally there are some pockets 
in Muslim communities that resent this or feel threatened by 
Christian proselytizing across the region, and the rapid rise 
in the number of churches and just the impacts on daily life. 
So I think that this contextual element needs to be kept in 
view.
    A second piece of this demographic shift has been ethnic 
minorities across this region who were alone and dominated by 
majorities in their states because of their switch to 
Christianity in recent decades are now part of a larger 
community. And this is very important political implications 
that has given them leverage in terms of trying to change the 
balance of power within their own states over access to 
government offices, access to resources and access to land, all 
of which are important pieces of the puzzle that we need to 
remember.
    A second important trend to think about in what is 
explaining the current escalation phase we are in is the April 
2011 elections which has left an enduring anger in the North. 
As you recall, it pitted President Jonathan, a Christian 
southerner, against General Buhari, a northern Muslim, and this 
gave the election a religious cast, a religious light. And 
during this period as well, President Jonathan's supporters, 
particularly in the Middle Belt and the northeast, were 
appealing to Christian minorities as part of this Christian 
awakening politically in the region as part of his campaign 
strategy. So consequently, when President Jonathan won by such 
a wide margin in the elections in April 2011 amid so many 
accusations of rigging, there were a lot of perceptions in the 
North that the election had been stolen from General Buhari. 
And this led to outbreaks of violence as we know shortly after 
the elections, and that there is continuing anger in the north 
against the Jonathan administration since that time, which 
initially was fed by the fact that all of the service chiefs in 
the Nigerian military were southerners feeding this perception 
of a southern dominated government. And I think this perception 
is a very important piece that we need to remember as we are 
thinking about U.S. policy. And these angers in pockets of the 
north will rise again as it faces the prospect of President 
Jonathan running again in 2015.
    I think, third, another important contextual factor here 
that we have talked about already is the massive poverty as 
well as the massive corruption in government. I think that has 
been covered already by other speakers so I don't need to 
expand on this. I think one part of this though is to note that 
the south has been growing much faster than the north and that 
unemployment and poverty in the north is a key piece of what is 
happening here.
    Fourth is the growing militarization across the Middle 
Belt. We have seen an explosion in the number of Christian and 
Muslim militias across the region who are increasingly well 
armed with occasional informal relationships with both the 
police and military units in the area. There have been numerous 
atrocities committed by both sides with increasing impunity. 
Very few have been brought to book for what has been done. Jos 
and Plateau State in particular are the main flashpoint in this 
regard, and I hope we can talk a little bit about the specifics 
of that conflict in a few moments. We also have pastoral farmer 
conflicts across the region, desertification across northern 
Nigeria is pushing farmers into traditional pasturelands of 
Muslim Fulani herders, and with many of the farmers being 
Christians in some areas this has gone forward.
    So lastly, let me just talk about Boko Haram for a moment. 
I think Boko Haram has risen in this very difficult context. 
For most of its early existence it had little to do with 
Christians and its primary anger was focused at the state and 
the security forces, particularly in Borno. But as you know, in 
the last 2 years there has been a tactical shift to target 
Christians for several purposes, and if I can just quickly go 
through those.
    I think the purposes of the current uptick of Boko Haram 
violence has been to silence the moderates within Boko Haram, 
many of whom have repeatedly tried to engage the government in 
dialogue. Second, I think is to consolidate the control of the 
hardliners and the recent gains. Third, to reach out to 
disaffected youth in the north. Fourth, to capture this anger 
that I mentioned over the 2011 election. And fifth, to situate 
itself as the vanguard of Islam and northern interests. So Boko 
Haram is asserting itself in these smaller conflicts in the Jos 
area and Kaduna and is actively trying to provoke Christian 
mobilization in order to forward its ends in a very limited 
way, but is also trying to portray the Jonathan government as a 
Christian bulwark.
    So I think that lastly to end up that U.S. policy has to be 
very careful to not reinforce this particular view. There is a 
new national security advisor who is a northerner and who has 
made overtures to talk to both Boko Haram and the Christian----
    Mr. Turner. All right, we will save the rest for the Q&A, 
okay?
    Mr. Kew. Okay, thank you.
    [The prepared statement of Mr. Kew follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Mr. Turner. Thank you, Doctor.
    Mr. John-Miller, please. Try to keep the comments to about 
5 minutes.
    Mr. John-Miller. I will try as much as I can.

   STATEMENT OF MR. ANSLEM JOHN-MILLER, U.S. REPRESENTATIVE, 
     MOVEMENT FOR THE SURVIVAL OF THE OGONI PEOPLE (MOSOP)

    Mr. John-Miller. Mr. Chairman and all respected members of 
this committee, I thank you for giving me the opportunity to 
address you. I will be discussing some of the troubles with 
Nigeria and its Niger Delta region, particularly Ogoni-land and 
the people. My name once again is Anslem DornuBari John-Miller, 
and I represent here the Movement for the Survival of Ogoni 
People and also one of its unit known as the Council of Ogoni 
Professionals.
    It is an open secret that the culture of corruption is 
prevalent in every sphere of government without due regard for 
the rule of law, rather successive political regimes preoccupy 
themselves with ethnic and personal interests. The effects are 
a regressive pace of development, high youth unemployment, 
brain-drain due to emigration, massive poverty and a 
dangerously trending insecurity situation in the country.
    The root causes of the problems in Nigeria is not far-
fetched. It is mismanagement and corruption by those at the 
helm of affairs. As long as these problems are not adequately 
addressed, any expectation of development and stability in 
Nigeria will remain elusive. The solution is not a handout of 
food supplies, medical supplies or material needs. The solution 
is the United States' and international community's resolute 
demand on the leadership of Nigeria to implement a clear road 
map to drastically clean up its government of corrupt practices 
and looting of public resources, within a specific time frame. 
The problem is not that of lack of resources, it is a problem 
of mismanagement of resources.
    Let me now address the issue of the Niger Delta. The issue 
of the Niger Delta became public and prominent as a result of 
the crisis in Ogoni that led to the death of Ken Saro-Wiwa in 
1995. Since then the situation remains very politic. The steps 
so far taken by the Federal Government of Nigeria in an attempt 
to address the Ogoni crisis were to create the Niger Delta 
Development Commission, NDDC, and the Niger Delta Ministry. The 
establishment of these two entities run contrary to the core 
demands of the Ogoni people, namely devolution of power from 
the center. In effect, the establishment of these two agencies 
further concentrate power at the Federal level of government.
    I would like to add that the NDDC and the Niger Delta 
Ministry is a colossal failure. All that has happened is the 
establishment of a bureacracy that is rooted in patronage. If 
that is not the case then the Niger Delta problem shouldn't 
have persisted and we should be having this hearing to talk 
about the issue of the Niger Delta.
    On August 4, 2011, the United Nations released a 
comprehensive report on Ogoni, highlighting the precarious 
environmental, social and economic problems that has resulted 
as a result of 40 years of oil exploration in the area. That 
report calls for immediate implementation and recommended 
several steps to be taken by the government. Such include 
health reasons. They give instances where the health of the 
Ogoni people are at stake. Up until this moment that urgent 
report has been shelved somewhere else. The President of 
Nigeria who promised to implement it within 2 weeks and set up 
a presidential committee has not implemented it to this minute.
    On the August 4, 2012, it will have been 1 year that that 
report was received. At the moment, all we received was a 
notification from the Minister of Environment stating that even 
before the committee, the presidential committee submitted its 
report, the Environment Minister stated publicly here in the 
United States that such funds for implementation of the report 
is not in the Nigerian budget. So any possibility of 
implementation in 2012 clearly is not available. The funds are 
not there. It is on record that Shell is entrusted in 
implementing the report and has stated that they have the funds 
to implement the report. But all that has happened is the 
President doesn't have the political will and is playing ethnic 
politics. That is why that report is shelved somewhere else and 
hasn't been implemented up until this moment.
    The amnesty program could be credited for the reduced level 
of violence in the restive Niger Delta especially in the Ijaw 
areas. However, it is important to note that that peace is one 
of the graveyard. It is temporary. The clear demarcation 
between the activities and protestation of the Ogoni people is 
that on one hand we adopted a nonviolent approach while the 
Ijaws adopted a violent approach. In fact, there was no cogent 
agitation in the Ijaw area of Nigeria. All that happened were 
criminals who were looting and also stealing oil, siphoning 
oil. Because of that, the constraint on the legitimate demands 
of the people and propagated as if they were the new leaders of 
the people.
    Where is the response of the government? Call this bunch of 
people, give them money, pay them bribes, give them also of the 
best things of life, and at the end of the day, outside of 
these funds, they cannot survive it. What they have done is to 
give a wrong signal, making the Ogoni people feel that it is 
only when you engage in violence that the Nigerian State can 
listen to you. I think that this committee has a lot to do in 
addressing the problems in Nigeria, and here are my specific 
recommendations. They will be very short.
    One, this committee and the Congress should adopt the 
concurrent resolution, H.CON.RES.121 sponsored by 
Representative Bobby Rush and Fortenberry on April 27, 2012, 
calling for development of the Niger Delta. The second issue is 
that of political autonomy for the Ogoni people. A practical 
way of addressing the self-determination yearnings of the Ogoni 
people is the creation of a Bori State that guarantees 
political autonomy. The Ogoni State or the proposed Bori State 
and its neighboring minorities will have adequate 
representation at the federal.
    I am also recommending that on the issue of corruption the 
U.S. Government should be proactive. They should take a second 
look at individuals in government who are engaged in corruption 
and sanction them. Restrict them from coming to the United 
States and as well as stopping the issuing of visas and all 
that. I also suggest that the refugees of Ogonis who are left 
behind in the United Nations High Commissioner for Refugee 
camps in Benin Republic be resettled. And lastly, the U.S. 
Goverment through this committee should stop the ongoing 
killings happening in Sogho over a proposed banana plantation 
in Ogoniland.
    Thank you.
    [The prepared statement of Mr. John-Miller follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              


    Mr. Turner. All right. Thank you. Because of time 
constraints we will submit questions, and answers will be part 
of the record. But I thank the panel for your reasoned 
testimony. Meeting is now adjourned.
    [Whereupon, at 4:46 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
